Report No. D2008-107          July 3, 2008




Contracts Issued by TACOM Life Cycle Management
 Command to BAE Systems Land and Armaments,
             Ground Systems Division
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ACO                   Administrative Contracting Officer
BAE                   BAE Systems Land and Armaments, Ground Systems Division
BOM                   Bill of Materials
CAM                   Contract Audit Manual
CY                    Calendar Year
DACO                  Divisional Administrative Contracting Officer
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
FAR                   Federal Acquisition Regulation
FPRA                  Forward Pricing Rate Agreement
HERCULES              Heavy Equipment Recovery Combat Utility Lift and Evacuation
                       System
PCO                   Procurement Contracting Officer
PM-HBCT               Project Manager Heavy Brigade Combat Team
PNM                   Price Negotiation Memorandum
PROCAS                Process Oriented Contract Administration Services
TACOM LCMC            U.S. Army TACOM Life Cycle Management Command
                              INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE

                             400 ARMY NAVY DRIVE

                        ARLINGTON, VIRGINIA 22202-4704





                                                                             July 3, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                 AGENCY
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY


SUBJECT: Report on Contracts Issued by TACOM Life Cycle Management Command
         to BAE Systems Land and Armaments, Ground Systems Division (Report
         No. D-2008-1 07)

        We are providing this report for review and comment. We performed this audit in
response to Defense Hotline Allegations. We considered management comments on a
draft of this report when preparing the final report.

        We request that management provide comments that conform to the requirements
of DoD Directive 7650.3. The Defense Contract Management Agency comments were
partially responsive. We request that the Director of the Defense Contract Management
Agency provide additional comments on Recommendations 3.a, 3.b, 3.c, and 4 by August
4,2008.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AUDACM@dodig.mil. Copies ofthe management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Deborah Carros at (703) 604-9217 (DSN 664-9217) or Ms. Sarah A. Davis at
(703) 604-9031 (DSN 664-9031). See Appendix D for the report distribution. The team
members are listed inside the back cover.




                                       ~~.&fl
                                     Assistant Inspector General
                                 Acquisition and Contract Management
               Department of Defense Office of Inspector General
Report No. D-2008-107                                                        July 3, 2008
    (Project No. D2007-D000CK-0256.000)

           Contracts Issued by TACOM Life Cycle Management 

                     Command to BAE Systems Land 

                and Armaments, Ground Systems Division 


                                 Executive Summary 


Who Should Read This Report and Why? Army and Defense Contract Management
Agency contracting personnel and Defense Contract Audit Agency auditors should read
this report. The report addresses issues related to Defense Contract Audit Agency
participation in the Alpha contracting process and forward pricing rate agreement
negotiations.

Background. We performed this audit in response to anonymous allegations made to the
Defense Hotline in August 2007. The complainant alleged that officials at the U.S. Army
TACOM Life Cycle Management Command and the Defense Contract Management
Agency constrained Defense Contract Audit Agency audit efforts during the award and
administration of contracts to BAE Systems Land and Armaments, Ground Systems
Division. The complainant also alleged that Defense Contract Audit Agency concerns
regarding contracts with BAE Systems Land and Armaments, Ground Systems Division
were ignored by both TACOM Life Cycle Management Command and Defense Contract
Management Agency personnel and that addressing Defense Contract Audit Agency
concerns could result in the Government paying substantially lower prices for contracts at
this location. The complainant identified specific concerns with contracts awarded by
TACOM Life Cycle Management Command to BAE Systems Land and Armaments,
Ground Systems Division for Bradley and Heavy Equipment Recovery Combat Utility
Lift and Evacuation System vehicles.

The Alpha contracting process occurs when representatives from a contractor and the
Government form a team to prepare a negotiated contract in the best interest of both
parties. Alpha contracting includes a simultaneous exchange of information and replaces
the traditional “consecutive contracting.” During the Alpha contracting process, the
Alpha team develops the scope of work, solicitation, and cost elements, and ultimately it
awards a contract. TACOM Life Cycle Management Command, Defense Contract
Management Agency, and Defense Contract Audit Agency each have documented
procedures for executing the Alpha contracting process.

Results. Overall, we substantiated 3 and partially substantiated 3 of the 11 allegations
(see Appendix B for allegations and Appendix C for Management Comments on these
allegations and the audit response). TACOM Life Cycle Management Command and
Defense Contract Management Agency contracting officials constrained the Defense
Contract Audit Agency’s ability to perform effective and meaningful audits in support of
contracts awarded to BAE Systems Land and Armaments, Ground Systems Division.
Specifically, contracting officials did not include the Defense Contract Audit Agency in
the Alpha contracting process for the FY 2005 Bradley vehicle procurement to ensure the
Defense Contract Audit Agency could perform an effective review of material costs.
Additionally, contracting officials did not require BAE Systems Land and Armaments,
Ground Systems Division forward pricing rate agreement proposals to be current,
accurate, and complete, as required by the Federal Acquisition Regulation. As a result,
TACOM Life Cycle Management Command contracting officials may have overpriced
firm-fixed-price contracts awarded to BAE Systems Land and Armaments, Ground
Systems Division.

TACOM Life Cycle Management Command personnel should follow agency policies
and procedures to include Defense Contract Audit Agency auditors during the Alpha
contracting process. In addition, the Program Executive Officer, Ground Combat
Systems should issue guidance to project managers that establishes time frames for
obligating supplemental funding. Defense Contract Management Agency, BAE Systems
Ground Systems Division contracting personnel should obtain current, accurate, and
complete forward pricing rate agreement proposals from BAE Systems Land and
Armaments, Ground Systems Division and request the Defense Contract Audit Agency to
audit the forward pricing rate agreement proposals. Additionally, Defense Contract
Management Agency, BAE Systems Ground Systems Division contracting personnel
should establish procedures to include Defense Contract Audit Agency auditors during
the Alpha contracting process. Defense Contract Audit Agency personnel should
perform a post award audit of contracts awarded using forward pricing rate agreements
for which certified cost and pricing data was obtained and identify defective pricing and
make any necessary recommendations to adjust affected contracts. (See the Finding
section of the report for the detailed recommendations.)

We identified a material internal control weakness in the award of contracts to BAE
Systems Land and Armaments, Ground Systems Division. Specifically, TACOM Life
Cycle Management Command and Defense Contract Management Agency personnel did
not follow the Federal Acquisition Regulation and their respective internal agency
guidance for Alpha contracting. We discuss this issue in detail in the finding.

Management Comments and Audit Response. The Director, Defense Contract Audit
Agency; the Director, Defense Contract Management Agency; the Deputy Chief of Staff
for the Commander, TACOM Life Cycle Management Command; and the Program
Executive Officer, Ground Combat Systems, TACOM Life Cycle Management
Command generally concurred with the recommendations to the draft report. The
Director, Defense Contract Management Agency partially concurred with the
recommendation to request that the Defense Contract Audit Agency perform an audit of
forward pricing rate agreement proposals in accordance with FAR Part 42 requirements,
and stated that the elements of the rate proposal are evaluated as they are ready, instead
of waiting for the contractor to submit a complete proposal. In addition, the Director
stated that opportunity for improvement may exist; the Divisional Administrative
Contracting Officer had initiated discussions between BAE, TACOM Life Cycle
Management Command, and the Defense Contract Audit Agency with the intent to
evaluate the impact on the Alpha Proposal Development Process as compared to the
process in which a complete proposal is audited after submittal. The comments provided
are partially responsive. The Defense Contract Management Agency has taken action to
evaluate the Alpha contracting process but did not address the Federal Acquisition
Regulation requirement regarding forward pricing rate agreements.

In addition, the Director concurred with the recommendations to obtain current, accurate,
and complete forward pricing rate agreement proposals from BAE and submit them to the
Defense Contract Audit Agency for audit. However, the comments provided are not
responsive and do not address the recommendations; additional comments are required.
                                            ii
We request that the Director, Defense Contract Management Agency, provide additional
comments that address the recommendations by August 4, 2008. (See the Finding
section of the report for a discussion of management comments and the Management
Comments section for the complete text of comments.)




                                         iii
Table of Contents 


Executive Summary                                                   i


Background                                                          1


Objectives                                                          3


Review of Internal Controls                                         3


Finding
     Contracts Awarded to BAE Systems Land and Armaments, Ground
      Systems Division by U.S. Army TACOM Life Cycle Management
      Command                                                       4



Appendixes
     A.   Scope and Methodology                                    21 

     B.   Allegations                                              23 

     C.   Management Comments on Allegations and Audit Response    27 

     D.   Report Distribution                                      29 


Management Comments
     Defense Contract Audit Agency

     Defense Contract Management Agency 

     TACOM Life Cycle Management Command 

     U.S. Army Materiel Command
Background 

          We initiated this audit in August 2007 in response to anonymous Defense Hotline
          allegations. The complainant alleged that officials at the U.S. Army TACOM
          Life Cycle Management Command (TACOM LCMC) and the Defense Contract
          Management Agency (DCMA), BAE Systems Ground Systems Division
          constrained Defense Contract Audit Agency (DCAA), BAE Systems Ground
          Systems Division1 audit efforts during the award and administration of contracts
          to BAE Systems Land and Armaments, Ground Systems Division (BAE).2 The
          complainant also alleged that DCAA concerns regarding contracts with BAE
          were ignored by both TACOM LCMC and DCMA personnel and that addressing
          DCAA concerns could result in the Government paying substantially lower prices
          for contracts at this location. The complainant identified specific concerns about
          contracts awarded by TACOM LCMC to BAE for Bradley and Heavy Equipment
          Recovery Combat Utility Lift and Evacuation System (HERCULES) vehicles.

          TACOM LCMC. The TACOM LCMC is headquartered in Warren, Michigan.
          According to the TACOM LCMC Web site,
                   TACOM LCMC is one of the Army’s largest weapon systems research,
                   development, and sustainment organizations….[TACOM LCMC]
                   provides and sustains mobility, lethality, and survivability for soldiers,
                   other services, and our Allies through ground combat, automotive,
                   marine and armaments technologies….The TACOM LCMC consists of
                   the Acquisition Center, Integrated Logistics Support Center, Program
                   Executive Office Combat Support & Combat Service Support, Program
                   Executive Office Ground Combat Systems, and Program Executive
                   Office Soldier.

          The Program Executive Office Ground Combat Systems includes the Project
          Manager Heavy Brigade Combat Team (PM-HBCT). The PM-HBCT is the life
          cycle manager for both the Bradley family of vehicles and the Abrams family of
          vehicles. Specifically, the TACOM LCMC Heavy Brigade Combat Team
          Acquisition Management Division is responsible for executing contractual actions
          related to the Abrams family (including the HERCULES) and the Bradley family
          of vehicles.

          The Bradley vehicles are fully armored, fully tracked vehicles designed to carry
          infantry into close contact with the enemy and provide cross-country mobility,
          medium- and long-range firepower, and adequate armor to protect the crew from
          artillery and small arms threats. The HERCULES vehicle is a recovery vehicle


1
    DCMA and DCAA both have sub offices colocated with BAE Systems Land and Armaments, Ground
    Systems Division. Those offices are referred to as DCMA, BAE Systems Ground Systems Division and
    DCAA, BAE Systems Ground Systems Division, respectively.
2
  On June 24, 2005, BAE Systems Inc., acquired United Defense Industries, Inc. The contracts we
reviewed were originally awarded to United Defense-Ground Systems Division, which is a subsidiary of
United Defense Industries, Inc.



                                                       1

used to safely tow and recover battle-damaged, mired, or inoperative Abrams
tanks.

BAE Systems. BAE Systems is a global company that develops, produces, and
supports advanced defense and aerospace systems. BAE Systems, Inc., is the
U.S. subsidiary of BAE Systems, Public Limited Company, a United Kingdom
company. BAE Systems, Inc., contains three operating groups, including the
BAE Systems Land and Armaments Operating Group, headquartered in
Arlington, Virginia. The BAE Systems Land and Armaments, Ground Systems
Division, located in York, Pennsylvania, provides combat vehicle systems in
major vehicle families, to include the Bradley family of vehicles and the
HERCULES.

Defense Contract Management Agency. DCMA personnel provide acquisition
life cycle and combat support by serving as negotiators and in-plant
representatives for Government procurement agencies both during the initial
stages of the acquisition cycle and throughout the life of resulting contracts.
DCMA was established per DoD Directive 5105.64 that states, “The Defense
Contract Management Agency shall perform Contract Administration Services for
DoD, other authorized Federal Agencies, foreign governments, international
organizations, and others as authorized.” Prior to contract award, DCMA
provides advice and services to help construct effective solicitations, identify
potential risks, select the most capable contractors, and write contracts that meet
the needs of the Government. After contract award, DCMA monitors contractors’
performance and management systems to ensure that cost, product performance,
and delivery schedules are in compliance with the terms and conditions of the
contracts.

Defense Contract Audit Agency. DCAA provides accounting and financial
advisory services in connection with the negotiation, administration, and
settlement of contracts and subcontracts to all DoD Components responsible for
procurement and contract administration, as established by DoD Directive
5105.36. DCAA is also responsible for performing all contract audits for the
DoD. Specifically, DCAA performs preaward contract audits of price proposals,
preaward surveys, and forward pricing labor and overhead rate reviews. DCAA
also performs post award contract audits of incurred costs and annual overhead
rates; Truth in Negotiation Act compliance; Cost Accounting Standards
compliance; and claims, and financial capability reviews. In addition, DCAA
audits contractor internal control systems, including audits of accounting systems,
estimating systems, material management, and labor charging.

Scope of Contracts Reviewed. Based on the anonymous Hotline allegations, we
reviewed the FY 2005 Bradley vehicle procurement, consisting of contract
W56HZV-05-G-0005, delivery orders 0001, 0002, 0003, and 0004, and contract
DAAE07-01-C-M016, modification P00123. We also reviewed the FY 2005 and
FY 2007 HERCULES vehicle procurements, consisting of contract DAAE07-01-
C-N030, modifications P00102 and P00133, because the Hotline allegations
specifically referred to these procurements. Additionally, we reviewed basic
contract DAAE07-01-C-M016 for Bradley vehicles as a basis for comparison
with the FY 2005 Bradley procurement.

TACOM LCMC contracting personnel awarded the FY 2005 Bradley
procurement on June 23, 2005, for a total award amount of $1.1 billion. TACOM

                                     2

     LCMC contracting personnel awarded the FY 2005 HERCULES vehicle
     procurement on June 23, 2005, for a total award amount of $143 million and the
     FY 2007 HERCULES vehicle procurement on November 9, 2006, for a total
     award amount of $251.1 million.


Objectives
     Our overall audit objective was to evaluate whether the allegations to the Defense
     Hotline concerning contracts issued by TACOM LCMC to BAE had merit.
     Specifically, we determined whether contract award and administrative
     procedures were in compliance with Federal and DoD policy. See Appendix A
     for a discussion of the scope and methodology. See Appendix B for a summary
     of the allegations and a discussion on whether they were substantiated.


Review of Internal Controls
     We identified a material internal control weakness in the award of contracts to
     BAE as defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC)
     Program Procedures,” January 4, 2006. Specifically, TACOM LCMC and
     DCMA personnel did not follow the Federal Acquisition Regulation (FAR) and
     internal agency guidance for Alpha contracting. We discuss this issue in detail in
     the finding. Implementing Recommendations 1., 2., 3., 4., and 5. should correct
     this control weakness. We will send a copy of the report to the senior official in
     charge of internal controls for the Army, DCMA, and DCAA.




                                          3

                   Contracts Awarded to BAE Systems
                   Land and Armaments, Ground Systems
                   Division by U.S. Army TACOM Life
                   Cycle Management Command
                   TACOM LCMC and DCMA contracting officials constrained DCAA’s
                   ability to perform effective and meaningful audits in support of contracts
                   awarded to BAE. Specifically, contracting officials did not:

                            •	 include DCAA personnel in the Alpha contracting process for
                               the FY 2005 Bradley vehicle procurement to ensure DCAA
                               personnel could perform an effective review of material costs;
                               and

                            •	 require BAE forward pricing rate agreement proposals to be
                               current, accurate, and complete, as required by the FAR.

                   Contracting officials constrained DCAA’s ability to perform effective and
                   meaningful audits because TACOM LCMC and DCMA personnel failed
                   to comply with their respective agency Alpha contracting policies and
                   procedures. Additionally, DCMA officials had not established procedures
                   to implement FAR guidance on forward pricing rate agreements. As a
                   result, TACOM LCMC contracting officials may have overpriced
                   firm-fixed-price contracts awarded to BAE.


Alpha Contracting Process
           Alpha contracting is a process where representatives from a contractor and the
           Government form a team to prepare a negotiated contract in the best interest of
           both parties. Alpha contracting includes a simultaneous exchange of information
           and replaces the traditional “consecutive contracting.” During the Alpha
           contracting process, the Alpha team develops the scope of work, solicitation, cost
           elements, and ultimately awards a contract.

           Alpha contracting is used primarily for sole-sourced, negotiated contracts.
           FAR 6.303-1 states that an approved Justification and Approval for Other Than
           Full and Open Competition must be in place before the Government can begin
           negotiations with the contractor. However, fact-finding inquiries and discussions
           between the Government and the contractor regarding requirements may take
           place before a Justification and Approval for Other Than Full and Open
           Competition is approved. TACOM LCMC, DCMA, and DCAA3 each have
           documented procedures for executing the Alpha contracting process.

           TACOM LCMC Guidance. According to TACOM LCMC procurement
           procedures, the Alpha team should include the contractor, a contract specialist
           and/or contracting officer, a legal representative for the buying activity, the

3
    DCAA guidance refers to the Alpha contracting process as an Integrated Product Team.

                                                     4

           customer, and applicable Government personnel. TACOM LCMC procurement
           procedures state that applicable Government personnel will usually include a
           pricing specialist, DCAA auditor, DCMA representative, and technical
           representatives, as needed. The level of complexity and the dollar amount of the
           acquisition generally determine the members of the Alpha team.

           Alpha contracting uses a Process Oriented Contract Administration Services
           (PROCAS) agreement. The procurement office is responsible for staffing and
           executing a PROCAS agreement, which lists the members and responsibilities of
           each team and sub team, and explains the rules and guidelines that the Alpha team
           will follow. The principal members of the Alpha team should sign the PROCAS
           agreement.

           DCMA Guidance. The DCMA Guidebook defines Alpha contracting as the
           process by which DCMA, DCAA, and the buying command remain in constant
           communication with the contractor while the contractor develops a contract
           proposal. The Alpha team concurrently evaluates, analyzes, fact-finds, and
           resolves disagreements as the contractor develops the proposal.

           DCAA Guidance. According to the DCAA Contract Audit Manual (CAM),
           during Alpha contracting, the DCAA auditor should provide real-time feedback
           on such items as proposal support data expectations, proposal estimating
           techniques, and the impact of outstanding estimating deficiencies on the proposal
           preparation process. The DCAA auditor should coordinate with the contracting
           officer to determine whether Alpha contracting will be used for a proposal and
           exactly what services the Alpha team will require from DCAA, to include an
           examination of the complete proposal, an examination of part of the proposal, or
           an application of agreed-upon procedures. 4


FY 2005 Bradley Procurement
           TACOM LCMC contracting personnel awarded contract W56HZV-05-G-0005,
           delivery orders 0001, 0002, 0003, 0004, and contract DAAE07-01-C-M016,
           modification P00123 to BAE for a total award amount of $1.1 billion on June 23,
           2005. These contract actions procured 241 M2A3 Bradley vehicles; 156 M3A3
           Bradley vehicles; 53 A3 Bradley Fire Support Team vehicles; 50 Operation
           Desert Storm Bradley vehicles; 100 Operation Desert Storm kit sets; 33 M7
           Bradley Fire Support Team Bradley Vehicles; 1 lot of Authorized Stock List
           spare parts; and 120 Commander’s Independent Viewers to be installed on
           Bradley vehicles. These contract delivery orders and modifications will be
           collectively referred to as the FY 2005 Bradley procurement throughout this
           report.

           TACOM LCMC and DCMA contracting officials did not include DCAA
           personnel in the Alpha contracting process for the FY 2005 Bradley vehicle
           procurement; therefore, DCAA personnel could not perform an effective review
           of material costs.


4
    An application of agreed-upon procedures is a review in which the contracting officer, not the auditor,
    establishes the scope of the steps that the auditor will perform.

                                                       5

Alpha Meetings. BAE personnel began holding Alpha meetings on December 2,
2004, to discuss the FY 2005 Bradley procurement. The December 2, 2004,
Alpha meeting minutes indicated that BAE personnel decided to include
Government personnel at the next Alpha meeting. Specifically, BAE personnel
were assigned to speak with PM-HBCT representatives at TACOM LCMC; the
procurement contracting officer (PCO) at TACOM LCMC; and the administrative
contracting officer (ACO) at DCMA York. The Alpha meeting minutes also
stated that BAE personnel noted that the ACO must decide whether to include
DCAA personnel in the Alpha meetings. DCMA personnel began attending the
Alpha meetings on December 9, 2004, and regularly attended Alpha meetings
until the contract was awarded.

According to Alpha meeting attendance lists, TACOM LCMC personnel attended
one Alpha meeting on April 28, 2005. However, TACOM LCMC contracting
personnel indicated that they participated in additional Alpha meetings via
telephone.

DCAA personnel did not attend any Alpha meetings. DCAA auditors stated that
they were unaware that BAE and DCMA personnel conducted Alpha meetings for
the FY 2005 Bradley procurement. In response to DCAA auditor inquiries on
why DCAA personnel were not notified of the Alpha meetings, BAE personnel
responded that because DCAA is a Government agency, it was more appropriate
for the PCO or the ACO to invite DCAA to participate. However, BAE personnel
invited DCAA auditors to participate in the Alpha meetings for the previous
Bradley vehicle procurement in FY 2004.

PROCAS Agreement. On May 2, 2005, the TACOM LCMC PCO e-mailed a
PROCAS agreement to DCAA personnel. According to the PROCAS
agreement, BAE agreed to include DCAA personnel in the development of cost
and technical information, where possible, as it was formulated for the proposal.
Additionally, DCAA personnel agreed to participate in efforts sponsored by the
contractor in the development of the proposal. The PROCAS agreement also
stated that DCAA, DCMA, PM-HBCT, TACOM, and BAE personnel agreed to
analyze cost and supporting data as it was developed in an effort to reach an
agreement with the contractor prior to final submission of the proposal.

DCAA Participation. TACOM LCMC contracting officials constrained
DCAA’s ability to provide meaningful audit results for the FY 2005 Bradley
procurement. Between May 23 and 25, 2005, the PCO requested, via telephone,
that DCAA auditors review BAE’s Bill of Materials (BOM), along with the Other
Material Costs, and the quotations from the subcontractors not on the BOM.

        Timeline of Bill of Materials Review. DCAA auditors initially requested
the BOM from BAE personnel on May 25, 2005, and received a copy of the BOM
from BAE personnel on May 26, 2005. However, the PCO informed DCAA
personnel on May 27, 2005, that the BOM contained errors and BAE personnel
needed to update the BOM. DCAA personnel received a copy of the updated
BOM on June 1, 2005, and began receiving supporting documentation for the
BOM on Friday, June 3, 2005. Also on Friday, June 3, 2005, the PCO requested
results of DCAA’s review of the BOM by Monday, June 6, 2005.

    The PCO stated that he required a short turnaround from DCAA because
TACOM LCMC contracting officials were under severe pressure to award

                                     6

contracts using the FY 2005 supplemental funding. PM-HBCT office
representatives stated that TACOM LCMC risked losing supplemental funding if
contracting officials did not obligate the supplemental funds within 30 days from
receipt. In an e-mail dated May 23, 2005, the former PM-HBCT stated that
TACOM LCMC would be receiving FY 2005 supplemental funding within a few
days and referenced several preceding messages from the Army Budget Office
and the Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
which, according to the e-mail, emphasized the need to obligate funding no later
than 30 days after receipt of the funding. PM-HBCT office representatives could
not provide any correspondence from either the Army Budget Office or the
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
directing Army commands to obligate funding within 30 days. PM-HBCT
personnel stated that their guidance from the Army Budget Office was verbal. An
Office of the Assistant Secretary of the Army, Financial Management and
Comptroller memorandum, dated May 10, 2005, required Army Major
Commands to report the planned execution of supplemental funding within 30
days of receipt. Assistant Secretary of the Army, Financial Management and
Comptroller office representatives confirmed the requirement to report the
planned execution of supplemental funding and stated that no requirement existed
to obligate the supplemental funding within 30 days of receipt.

        Results of BOM Review. On Monday, June 6, 2005, DCAA personnel
e-mailed the results of the BOM review to the PCO, stating that they could not
obtain sufficient evidence to base an opinion on the FY 2005 Bradley direct
material costs, subcontractor costs, and other material costs due to PCO-imposed
time constraints. According to the e-mail, the amount of time provided for
performance of the audit did not allow DCAA auditors to apply auditing
procedures to verify the acceptability of BAE’s direct material costs, subcontract
costs, and other material costs. DCAA officials stated that an audit of this size
and scope might typically take three weeks. The DCAA CAM states that a
DCAA auditor should use previous purchase order prices adjusted for quantity
differences in evaluating a contractor’s BOM pricing. According to the DCAA
CAM, the auditor should compare the prices on the BOM with prices quoted by
competing suppliers for comparable quantities, recent quotations for the same or
similar items, and costs incurred by the contractor for the same or similar items.
Additionally, the DCAA CAM states that the auditor should consider patterns of
reductions from quotes to actual prices paid by the contractor for prior
procurements.

        DCAA auditors did not have time to gather historical data and compare
the material prices listed by BAE to previous vendor quotations and purchase
orders. Therefore, DCAA personnel relied on the BAE analysis of historical data.
For 26 of the 37 subcontractors, DCAA personnel reviewed BAE’s cost and price
analyses and determined the analyses to be incomplete because the analyses did
not include historical procurement information from the subcontractors. DCAA
personnel did not have time to review the BAE files to obtain and analyze the
incomplete data, nor did DCAA personnel have time to contact the cognizant
DCAA offices to obtain more information. DCAA personnel provided decrement
factors to the PCO for 22 subcontractors based on previous DCAA audit
assignments and limited data that the contractor provided. DCAA disclaimed an
opinion for 15 subcontractors.



                                     7

    Agency Compliance With Alpha Guidance. TACOM LCMC and DCMA
    personnel failed to comply with their respective agency Alpha contracting
    policies and procedures for the FY 2005 Bradley procurement.

            TACOM LCMC. TACOM LCMC personnel did not follow internal
    Alpha contracting policies and procedures, which state that the Alpha team should
    usually include a DCAA auditor, as determined by the complexity and the dollar
    amount of the acquisition. The PCO did not communicate with DCAA regarding
    the FY 2005 Bradley procurement until May 2, 2005, and never requested DCAA
    participation on the Alpha team. Based on TACOM LCMC guidance, a
    $1.1 billion procurement involving in excess of 500 vehicles warrants DCAA
    involvement in the Alpha contracting process.

           The TACOM LCMC personnel did follow their internal procedures for the
    Alpha contracting process for the FY 2005 HERCULES procurement. The PCO
    requested DCAA assistance on March 16, 2005, for a $143 million contract
    modification also awarded to BAE on June 23, 2005, for HERCULES vehicles.
    The PCO involved DCAA personnel in the Alpha process as early as
    April 26, 2005.

            DCMA. The DCMA Guidebook includes DCAA as a participant in the
    Alpha contracting process; however, the DCMA ACO never informed DCAA
    personnel of the Alpha meetings for the FY 2005 Bradley procurement nor
    invited DCAA personnel to participate in the Alpha meetings. DCMA personnel
    participated in most of the Alpha meetings from December 2004 through May
    2005. Meeting notes from the December 2, 2004, Alpha meeting stated that the
    DCMA ACO will decide whether to include DCAA personnel in the Alpha
    process.

    If DCAA personnel had participated in the Alpha meetings DCAA auditors might
    have been able to examine subcontractor proposals and quotations as
    subcontractors provided the information to BAE. With more time to gather and
    analyze data, DCAA auditors might have been able to provide more meaningful
    audit results to the PCO for this procurement. Meeting notes prepared by BAE
    personnel from a February 24, 2005, Alpha meeting state that the proposals from
    suppliers and subcontractors were to be submitted by March 16, 2005, which
    would have given DCAA auditors time to review the proposals and gather the
    data necessary to evaluate the proposals in preparation for negotiations.
    Additionally, the TACOM LCMC contract specialist indicated that BAE provided
    vendor quotations to the Alpha team as BAE received the quotations.


Forward Pricing Rate Agreements
    For contractors with significant sales to the Government, an ACO may establish
    forward pricing rates to facilitate the estimating and negotiating of proposals by
    making the process less time-consuming and costly for both the Government and
    contractors. A Forward Pricing Rate Agreement (FPRA) is a written agreement
    that a contractor and the Government negotiate to generate rates to be used in
    pricing contracts or modifications during a specified period of time. The rates
    represent projections of specific costs that are not easily estimated for, identified
    with, or generated by a specific contract.

                                          8

FPRA Criteria. The FAR provides instruction for establishing FPRAs and
details the requirements for adequately documenting the basis for established
forward pricing rates included in an FPRA. DCMA guidance provides instruction
on the use of the Alpha contracting process for FPRAs. DCAA guidance instructs
DCAA auditors on what information must be considered when auditing an FPRA.

        FAR Requirements. FAR 42.1701, “Forward Pricing Rate Agreement
Procedures,” provides instruction for establishing FPRAs, stating that the ACO
will obtain the contractor’s proposal and require that it include cost or pricing
data that are accurate, complete, and current as of the date of submission. In
addition, the ACO will invite the cognizant contract auditor and contracting
offices to participate in developing a Government objective and in the
negotiations. After completing negotiations with the contractor, the ACO must
prepare a price negotiation memorandum (PNM), along with the FPRA. The
FPRA provides specific terms and conditions covering expiration, application,
and data requirements for systematic monitoring to ensure the accuracy of the
rates. The agreement should also provide for cancellation at the option of either
party and require the contractor to submit any changes in cost or pricing data to
the ACO and to the cognizant contract auditor. When an FPRA becomes
inaccurate, the contractor should submit and negotiate a new proposal to reflect
the changed conditions.

        FAR 15.406-3, “Contract Pricing Documenting the Negotiation,” details
the requirements for adequately documenting the basis for established forward
pricing rates included in an FPRA. In the PNM, the ACO should document the
principal elements of the negotiated agreement, including the:

   •	 purpose of the negotiation;

   •	 description of the contractor’s proposal;

   •	 name, position, and organization of each person representing the 

      contractor or the Government in the negotiation; 


   •	 current status of any relevant contractor systems (for example, estimating,
      accounting, etc.);

   •	 field pricing assistance recommendations, if any, including the reasons for
      any pertinent variances from them;

   •	 Government’s negotiation objective;

   •	 negotiated position; and

   •	 negotiated agreement, including an explanation of any significant 

      differences between the objective and negotiated positions. 


        DCMA Guidance. According to the DCMA Guidebook, the ACO should
request an FPRA proposal from the contractor when establishing an FPRA. The
ACO may choose to use the Alpha contracting process to create an FPRA. When
Alpha contracting is used to create an FPRA, the Alpha team should be involved
in the development of the FPRA proposal. Although the Alpha team will review


                                     9

the contractor’s proposal data as it is developed, the contractor must still provide
a final proposal to be used for achieving an FPRA.

         DCAA Guidance. The DCAA CAM Chapter 9 states that while auditing
an FPRA, a DCAA auditor must consider: the materiality of bases, pools, and
rates; the results of prior DCAA audits and the adequacy of contractor internal
controls; the historical differences between the contractor’s forecasted and actual
rates; and changes in the contractor’s organization, operations, manufacturing
processes and practices, business volume, and allocation bases. Additionally, the
auditor should determine that the contractor’s projected business volume,
allocation bases, and indirect costs are reasonable; the contractor’s rate data are
valid and correct; and that the contractor’s rate computations are mathematically
correct.

        The DCAA CAM requires that, at a minimum, a DCAA auditor should
verify that the forecasted allocation bases and estimated pool costs are compatible
with the contractor’s current business volume estimates and developed in
accordance with the latest management plan when performing FPRA audits.
Additionally, the auditor should consider the procurement requirements and
limitations of the individual buying offices.

BAE FPRAs. DCMA contracting officials did not require BAE forward pricing
rate agreement proposals to be current, accurate, and complete, as required by the
FAR. Additionally, the first FPRA Alpha team discussion minutes from
September 20, 2000, stated that, ideally, the FPRA Alpha team will not require an
FPRA proposal submission, an audit, an evaluation, or any negotiations.

Prior to 2000, DCMA and BAE personnel did not negotiate formal FPRAs at
BAE because BAE’s business base was very volatile, causing fluctuations in
indirect rates. DCMA and BAE personnel established an FPRA Alpha team in
October 2000 to create an FPRA and eliminate the need to negotiate indirect rates
for each contract awarded to BAE. The FPRA Alpha team continuously
monitored and updated the BAE FPRA after the first FPRA was established in
March 2001, resulting in 21 subsequent FPRAs as of June 2007.

        BAE FPRA Alpha Team. The BAE FPRA Alpha team consisted of a
base team and a pool team. The base team identified the business base by
reviewing BAE’s projected business for all of the years included in an FPRA.
Generally, an FPRA at BAE encompassed four or five years of business. Base
team members discussed BAE’s projected production of vehicles with
Government program managers to verify the probability that BAE would produce
the given number of vehicles. The base team then analyzed the BAE conversion
of the projected number of vehicles to projected labor hours and compared the
number of projected labor hours with Government negotiation memorandums
documenting the number of labor hours the Government and BAE agreed to in
previous contracts. Finally, the base team agreed to a business base, which
included the number of vehicles and labor hour quantities to be incorporated into
the FPRA. The pool team identified pool costs by examining the BAE budgeted
costs for each department (that is, contract support, manufacturing) for the current
calendar year.

       After the base and pool teams developed their figures, BAE personnel
entered the data into the automated forward pricing rate model that BAE

                                     10 

developed. The model then calculated the forward pricing rates for out years
based on budgeted costs developed by the pool team and the projected business
base developed by the base team. After the model calculated forward pricing
rates, the ACO, along with BAE personnel, reviewed the rates and signed an
FPRA.

       According to DCAA documentation, BAE challenged DCAA requests for
supporting data during the FPRA Alpha meetings in FY 2001 by stating that
DCAA was not permitted to audit the data, making it difficult for DCAA to
provide quantitative input. DCAA personnel felt their attendance at FPRA Alpha
meetings gave the appearance that DCAA personnel audited and supported the
FPRAs. DCAA auditors were concerned that by reviewing data entered into the
FPRA model, yet not reviewing the output of the FPRA model, BAE could claim
that DCAA took no exception and, therefore, DCAA could not question any of
the pool costs. In March 2003, a DCAA auditor requested to be removed from
the FPRA Alpha team, citing concerns about auditor independence. The FPRAs
no longer listed DCAA personnel as members of the FPRA Alpha team; however,
DCAA personnel still attended FPRA Alpha meetings, acting mainly as
observers.

        DCAA Audits. DCAA audits performed throughout the FPRA Alpha
process did not provide effective and meaningful results because BAE FPRA data
provided to DCAA was not current, accurate, and complete. In addition, the ACO
did not always consider DCAA audit results when negotiating FPRAs. Since
2001, DCAA performed 5 audits on BAE budget data and 4 audits on BAE
FPRAs.

               DCAA Budget Audits. The BAE Calendar Year (CY) budgets
provided the basis for the pool costs that were entered into the automated forward
pricing rate model to calculate forward pricing rates. Since 2001, DCAA
performed 5 audits on BAE budget data that were used as the basis for FPRA pool
costs; however, DCAA auditors did not examine the corresponding business bases
used to allocate the costs because the ACO requested that DCAA look only at the
pool costs. As a result, DCAA did not look at all of the data critical for
determining whether the forward pricing rates were accurate. Additionally, BAE
did not always use the same business bases to formulate the CY budget that the
FPRA Alpha team used in the forward pricing rate model. As a result, the
budgeted costs that DCAA reviewed in its audits of budget data may have
differed from the budget costs used to develop the FPRA. Furthermore, the ACO
requested DCAA to audit the budgeted costs for only 1 year and did not request
that DCAA review any of the projected costs applicable to the additional years
covered in the FPRA.

                       DCAA Audit on CY 2002 BAE Budget Data. DCMA
personnel requested that DCAA personnel audit the BAE CY 2002 budget on
January 11, 2002. According to DCAA documentation, DCMA personnel
directed DCAA personnel not to examine the BAE allocation business base
during this budget audit. In addition, DCAA documentation indicated that
DCMA personnel informed DCAA personnel that DCMA personnel “may not
even use” the audit results during the FPRA Alpha process.

                     DCAA Audit on CY 2003 BAE Budget Data. DCMA
personnel requested DCAA to audit the BAE CY 2003 budget on January 17,

                                    11 

2003. However, the ACO and BAE personnel signed an FPRA on February 24,
2003, using the BAE CY 2002 budget data, which violated the FAR requirement
that an FPRA be based on cost or pricing data that are accurate, complete, and
current as of the date of submission. The ACO should have used the CY 2003
budget data because it was more current. However, the DCAA audit report issued
on April 18, 2003, stated that the BAE CY 2003 budget did not form an
acceptable basis for negotiation of fair and reasonable indirect forward pricing
rates because the BAE CY 2003 budget was not prepared in accordance with
applicable cost accounting standards. According to the audit report, DCAA
personnel informed the ACO of this finding on April 10, 2003. However, the
ACO and BAE personnel signed an FPRA developed using the BAE CY 2003
budget on May 20, 2003. We could not determine whether the ACO considered
the DCAA audit report when negotiating this FPRA because the ACO did not
prepare a PNM for this FPRA.

                        DCAA Audit on CY 2004 BAE Budget Data. On
February 2, 2004, DCMA personnel requested DCAA to audit the indirect cost
pools contained in the BAE CY 2004 budget, which the FPRA Alpha team would
use as a basis for the pool costs in the next FPRA. DCAA questioned $2.9
million in indirect costs. The ACO used the DCAA audit report to negotiate cost
reductions totaling $2 million. However, the DCAA audit report stated that the
business base assumptions BAE used to create the CY 2004 budget may have
differed from the base agreement used by the FPRA Alpha team to create the
FPRA. Since the base cost used may have differed from the budget, the pool
costs used may have been different than the costs DCAA audited. Therefore, the
DCAA results may not be applicable to the pool costs actually used to create the
FPRA.

                        DCAA Audit on CY 2005 BAE Budget Data. On
February 4, 2005, DCMA personnel requested DCAA to audit the indirect cost
pools contained in the BAE CY 2005 budget, which the FPRA Alpha team would
use as a basis for the pool costs in the next FPRA. Again, DCAA questioned $2.9
million in indirect costs. The ACO used the DCAA audit report to negotiate cost
reductions totaling $1.6 million. However, the DCAA audit report stated that the
business base assumptions BAE used to create the CY 2005 budget may have
differed from the base agreement used by the FPRA Alpha team to create the
FPRA. Therefore, the DCAA results may not be applicable to the pool costs
actually used to create the FPRA.

               The DCAA CAM requires that, at a minimum, a DCAA auditor
should verify that the forecasted allocation bases and estimated pool costs are
compatible with the contractor’s current business volume estimates and
developed in accordance with the latest management plan when performing
FPRA audits. Additionally, the DCAA CAM states that the auditor should
consider the procurement requirements and limitations of the individual buying
offices. However, DCAA auditors reviewed only individual CY budget costs and
did not review a complete FPRA proposal because the ACO requested that
DCAA review only pool costs.

        DCAA FPRA Audits. Since 2001, DCAA has audited 4 BAE FPRAs;
however, DCMA and BAE personnel signed the FPRAs before DCAA issued the
audit reports. Although in all four cases DCAA provided preliminary results to
DCMA, two of the four PNMs did not address whether the ACO considered

                                   12 

DCAA audit results when negotiating FPRAs. DCAA canceled a fifth audit of an
FPRA due to lack of adequate cost and pricing data to support the FPRA. DCAA
may have been able to provide more meaningful information for the ACO to use
in negotiating the FPRAs with BAE if the ACO had required BAE to submit
current, accurate, and complete proposals for the FPRAs, as required by the FAR.

        The ACO prepared PNMs that did not properly document how the ACO
used DCAA audit results in negotiating the FPRAs, as required by the FAR. For
example, in April and May 2005, DCAA performed an audit of the BAE indirect
pools, bases, and rates while an FPRA was being developed, and determined
BAE’s projected FY 2007 Division-Wide Material Handling and Division-Wide
General and Administrative rates were unacceptable. DCAA issued this audit
report on June 22, 2005; the audit report stated that DCAA provided verbal results
to the ACO on May 3, 2005. However, DCMA and BAE personnel negotiated
the FPRA on May 4, 2005. The FPRA dated May 4, 2005, properly included the
rates DCAA recommended for BAE’s FY 2007 Division-Wide Material Handling
and Division-Wide General and Administrative costs; however, the ACO did not
document in the PNM how the ACO used the audit results in negotiating the
FPRA, as required by the FAR.

        On October 23, 2006, the ACO requested that DCAA examine base and
pool information for an in-process FPRA. The ACO and BAE personnel signed
the FPRA on November 1, 2006. On January 16, 2007, DCAA canceled the
examination requested by the ACO because DCAA could not obtain adequate
cost and pricing data to review.

Compliance With FAR Guidance. DCMA officials had not established
procedures to implement internal guidance and FAR requirements on forward
pricing rate agreements. BAE provided supporting documentation during the
FPRA Alpha process for the business base and pool expenses separately.
However, the ACO stated that he did not require BAE to submit a complete
FPRA proposal with supporting documentation detailing the allocation business
bases, pool expenses, and rates for each FPRA. FAR 42.1701(b) requires that the
ACO obtain the contractor’s FPRA proposal, to include cost or pricing data that
are accurate, complete, and current as of the date of submission. According to
numerous PNMs, BAE personnel entered the business base and pool expense
figures developed by the respective Alpha teams into the FPRA proposal model;
the model then calculated the rates, and after little or no negotiation, the ACO
used the rates for the FPRAs.

In addition, the ACO was unable to provide PNMs for 8 of the 22 BAE FPRAs;
FAR 42.1701(b) requires that the ACO prepare a PNM after reaching agreement
with the contractor on an FPRA. The ACO provided PNMs for 14 BAE FPRAs,
and the PNMs did not properly document information required by the FAR. The
PNMs did not comply with FAR 15.406-3 because the ACO failed to:

   •	 include a description of the contractor’s proposal;

   •	 detail the Government objective;

   •	 highlight significant variances between the negotiated rates and the

      Government objective; 



                                    13 

        •	 detail DCAA recommendations, if any; and

        •	 include the reasons for any pertinent variances from DCAA
           recommendations.

     Due to the lack of adequate documentation, we could not determine whether the
     ACO used DCAA audit results when negotiating FPRAs with BAE.

     Rate Overstatements. The majority of the indirect rates negotiated in BAE
     FPRAs from 2001 through 2006 were overstated when compared with the actual
     indirect rates incurred by BAE. For example, TACOM LCMC contracting
     officials used the May 4, 2005, FPRA to award the FY 2005 Bradley
     procurement, valued at $1.1 billion, and the contract included at least $138
     million of estimated indirect costs derived from the FPRA rates. The FPRA
     included rates for CYs 2005, 2006, 2007, and 2008, and the FPRA overstated 25
     of the 34 indirect rates for 2005 and 2006, when compared with the actual rates
     incurred by BAE for those years. As a result, the $138 million of estimated
     indirect costs negotiated in the contract price included costs that BAE did not
     actually incur. We were unable to determine the specific estimated costs
     associated with 2005 and 2006 because TACOM LCMC contracting officials
     could not provide cost estimate summaries by calendar year for the negotiated
     contract price; as a result, we could not determine how much of the $138 million
     in indirect costs were not incurred. DCAA should perform a post award audit of
     the Alpha contracting process for forward pricing rate agreements to determine
     whether defective pricing occurred and make any necessary recommendations to
     adjust affected contracts.


Other Matters of Interest
     During our review of the contracts identified in the allegations, it became clear
     that communication and coordination among TACOM LCMC, DCMA, DCAA,
     and BAE personnel were ineffective and often nonexistent. The Alpha
     contracting process cannot succeed without a simultaneous exchange of
     information among representatives for the Government and the contractor;
     communication and coordination are critical elements to a successful Alpha
     contracting negotiation.

     During the Alpha contracting process for the FY 2005 Bradley procurement,
     DCMA and DCAA personnel lacked basic and fundamental communication on
     most issues. DCAA auditors were not included in the Alpha contracting process
     until late May 2005, when TACOM LCMC contracting officials requested the
     BOM review. DCAA personnel were aware of the Bradley procurement,
     however, as early as January 2005. Although the onus is clearly on
     TACOM LCMC and DCMA contracting personnel to invite DCAA to participate
     in the Alpha contracting process, DCAA auditors could have been more proactive
     in determining their involvement in the process and what services they might be
     required to perform. During the audit, DCAA officials agreed that they could
     have been more proactive and would ensure a more assertive approach, if
     necessary, in the future.



                                         14 

    Additionally, DCAA continues to have difficulty obtaining necessary information
    in a timely manner. Since June 2007, DCAA has issued 5 memorandums to BAE
    regarding Government requests for information that have not been satisfactorily
    answered by BAE. DCMA should provide DCAA assistance in obtaining
    information from the contractor to satisfy DCMA audit requests in a timely
    manner and so that DCAA can provide more meaningful audit results.

    DCMA and DCAA management officials must establish an environment that
    ensures effective, simultaneous, and sufficient communication among personnel
    executing the Alpha contracting process. DCMA personnel stated that they chair
    executive management meetings to provide a forum for DCMA, DCAA, and BAE
    to maintain communication and elevate concerns. However, the communication
    and coordination issues discussed in our report were not raised at the executive
    management meetings. If the personnel responsible for Alpha contracting do not
    or cannot communicate or coordinate as necessary to accomplish their
    requirements, senior managers must identify and address the problem.


Conclusion
    TACOM LCMC contracting officials may have overpriced the FY 2005 Bradley
    procurement awarded to BAE because contracting officials did not ensure DCAA
    participation in the Alpha contracting process and BAE FPRA negotiations.
    TACOM LCMC contracting officials acknowledged that they requested results
    from a DCAA review within 2 non-working days, stating that they were under
    strict time constraints from the PM-HBCT to obligate funds. PM-HBCT officials
    stated that the Army Budget Office guidance was verbal and very clear that the
    expectation was to obligate the funds within 30 days. According to the Office of
    the Assistant Secretary of the Army, Financial Management and Comptroller,
    however, the time constraint requirement did not exist. Although the time
    constraint may have resulted from misinterpreted guidance, TACOM LCMC
    personnel continued to execute contract actions with BAE and without critical
    assistance from DCAA. Because of the unnecessary time constraints imposed by
    TACOM LCMC contracting officials, DCAA disclaimed an opinion on the FY
    2005 Bradley procurement BOM review. If TACOM LCMC and DCMA
    contracting officials had followed existing agency Alpha contracting policies and
    procedures and included DCAA in Alpha meetings as early as December 2004,
    DCAA may have been able to provide more meaningful results to contracting
    officials in order to negotiate lower material prices to be paid by the Government
    for this firm-fixed-price procurement. Additionally, if DCAA personnel had
    coordinated with the PCO on the services DCAA might be asked to provide,
    DCAA may have been able to provide a more useful review of material costs.

    TACOM LCMC contracting officials may have overpriced firm-fixed-price
    contracts with BAE, because a majority of the indirect rates negotiated in FPRAs
    were higher than the actual rates incurred by BAE. As a result, the Government
    negotiated firm-fixed price contracts awarded to BAE based on estimated costs
    that BAE did not actually incur. If DCMA personnel had properly required BAE
    to submit accurate, current, and complete FPRA proposals for DCAA to audit,
    DCAA may have been able to provide meaningful audit results for the ACO’s use
    in negotiating FPRAs.


                                        15 

Management Comments on Finding and Audit Response
  The Deputy Chief of Staff for the Commander, TACOM Life Cycle Management
  Command and the Program Executive Officer, Ground Combat Systems, TACOM
  Life Cycle Management Command made comments to the finding discussion of the
  draft report.

  Commander Comments. The Deputy Chief of Staff for the Commander agreed that
  TACOM requested an unrealistic response time from DCAA for the FY 2005 Bradley
  procurement. The Deputy Chief of Staff for the Commander also stated that TACOM
  Acquisition Center Bradley team invited DCAA to participate in the Alpha process
  on many occasions. The Deputy Chief of Staff for the Commander stated that DCAA
  attended most of the weekly FPRA IPT meetings and were invited to the Alpha
  meetings, which they attended on occasion.

  We determined that DCAA personnel did not attend any Alpha meetings for the
  FY 2005 Bradley procurement. DCAA auditors stated that they were unaware that
  BAE and DCMA personnel conducted Alpha meetings for the FY 2005 Bradley
  procurement. In response to DCAA auditor inquiries on why DCAA personnel were
  not notified of the Alpha meetings, BAE personnel responded that because DCAA is
  a Government agency, it is more appropriate for the PCO or the ACO to invite
  DCAA to participate. However, BAE personnel invited DCAA to participate in the
  Alpha meetings for the previous Bradley vehicle procurement in FY 2004.

  In addition, during the audit the PCO stated that he did not invite DCAA to
  participate in the IPT process because DCAA already knew they needed to attend the
  meetings and that a request letter was only a formality. However, a request letter was
  sent to DCAA to participate in the IPT process for the FY 2005 HERCULES
  procurement, which occurred concurrently with the FY 2005 Bradley procurement.
  TACOM LCMC procurement procedures state that the Alpha team should include the
  contractor, a contract specialist and/or contracting officer, a legal representative, the
  customer, and applicable Government personnel. TACOM LCMC procurement
  procedures state that applicable Government personnel will usually include a pricing
  specialist, a DCAA auditor, a DCMA representative, and technical representatives as
  needed based on the level of complexity and the dollar amount of the acquisition.
  TACOM LCMC invited DCAA to participate in the IPT process for the $143 million
  FY 2005 HERCULES procurement; therefore, TACOM LCMC personnel should
  have invited DCAA to participate in the $1.1 billion FY 2005 Bradley procurement.

  Additionally, the Deputy Chief of Staff for the Commander commented on the report
  statement that, “… the Government negotiated firm-fixed price contracts awarded to
  BAE based on estimated costs that BAE did not actually incur,” and stated that the
  Government negotiation team relied on BAE’s proposal data, which was certified by
  BAE as current, accurate, and complete. The Deputy Chief of Staff for the
  Commander stated the team could not have anticipated that BAE would not actually
  incur the costs related to the higher rates compared to subsequent actual rates. The
  actual rates came in lower due to the unanticipated surge in war-related business
  volume.

  We determined, however, that BAE provided supporting documentation during the
  FPRA Alpha process for the business base and pool expenses separately. The ACO
  stated that he did not require BAE to submit a complete FPRA proposal with

                                           16 

  supporting documentation detailing the allocation business bases, pool expenses, and
  rates for each FPRA. FAR 42.1701(b) requires that the ACO obtain the contractor’s
  FPRA proposal, to include costs or pricing data that are accurate, complete, and
  current as of the date of submission.

  Program Executive Officer Comments. The Program Executive Officer, Ground
  Combat Systems TACOM Life Cycle Management Command, acknowledged that a
  number of the indirect rates negotiated in BAE FPRAs from 2001 through 2006 were
  overstated compared with actuals incurred. However, the Program Executive Officer,
  Ground Combat Systems TACOM LCMC, stated that the conclusion that the $138
  million in indirect costs in the contract included costs that BAE did not actually incur
  is misleading. The Program Executive Officer also stated that the auditors did not
  request the breakdown for the amount of work performed under this contract by
  calendar year and that the auditors did not provide any specific data or even any
  anecdotal evidence to support the allegation made that the overstating of FPRA rates
  at BAE is due to defective pricing.

  Based on the comments from the Program Executive Officer, the team changed the
  text within the paragraph titled, “Rate Overstatements,” by inserting the word
  “estimated” in front of any mention of costs or indirect rates to make the paragraph
  read more clearly. Additionally, the report now states, “As a result, the $138 million
  of estimated indirect costs negotiated in the contract price included costs that BAE
  did not actually incur.” The team changed the last sentence of the “Rate
  Overstatements” paragraph to state “determine whether defective pricing occurred”
  instead of “identify defective pricing.”

  The audit team did not specifically ask for the amount of work performed on the
  contract per year because we did not require that information. We specifically asked
  PM HBCT personnel for the cost estimate summaries by calendar year for the
  contract, and PM HBCT personnel could not provide this information by calendar
  year.


Recommendations, Management Comments, and Audit
Response
           1. We recommend that the Commander, TACOM Life Cycle
     Management Command direct the Director, Acquisition Center to follow
     TACOM Life Cycle Management Command policies and procedures to include
     Defense Contract Audit Agency auditors during the Alpha contracting process.

     Management Comments. The Deputy Chief of Staff for the Commander,
     TACOM Life Cycle Management Command concurred, stating that the Director,
     Acquisition Center will issue a memorandum to all procurement contracting
     officers reminding them of the responsibility to include Defense Contract Audit
     Agency auditors during the Alpha contracting process as outlined in TACOM
     LCMC policy. The Deputy Chief of Staff for the Commander stated that the
     target date of completion of this action is June 30, 2008.

     Audit Response. The comments are responsive, and no additional comments are
     required.

                                          17 

       2. We recommend that the Program Executive Officer, Ground Combat
Systems, TACOM Life Cycle Management Command issue guidance to project
managers that clearly establishes time frames for obligating supplemental
funding.

Management Comments. The Program Executive Officer, Ground Combat
Systems, TACOM Life Cycle Management Command concurred, stating that
guidance will be issued to project managers and their acquisition staff that
strengthens current processes and procedures with timeframes for awarding
appropriated funds. The Program Executive Officer stated that the target date of
completion of this action is June 30, 2008.

Audit Response. The comments are responsive, and no additional comments are
required.

          3. We recommend that the Director, Defense Contract Management
Agency direct the Commander, Defense Contract Management Agency, BAE
Systems Ground Systems Division to:

               a. Obtain current, accurate, and complete forward pricing rate
agreement proposals from BAE Systems Land and Armaments Ground Systems
Division in accordance with Federal Acquisition Regulation Part 42, “Contract
Administration and Audit Services,” and properly document the negotiation of
forward pricing rate agreements in accordance with Federal Acquisition
Regulation Part 15, “Contracting by Negotiation.”

Management Comments. The Director, Defense Contract Management Agency
concurred and stated that Defense Contract Management Agency agrees that all
contractors are required to provide current, accurate and complete forward pricing
rate agreement proposals. The Director also stated that DCMA Combat Vehicles-
BAE York required current, accurate, and complete data from the contractor to be
input into a computer program to produce a proposal. The Director stated that the
Divisional Administrative Contracting Officer (DACO) will continue to require
BAE to furnish such data and certification of the FPRA proposal information will
continue to be required when it is used to price a contract action that requires a
certificate. In addition, the identification of the supporting information and the
results of the negotiation will be documented in the negotiation memorandum in
accordance with the Federal Acquisition Regulation. DCMA’s comments on
page 6 state that the ACO does not require a complete proposal submission in a
continuous FPRA environment; it is not always necessary.

Audit Response. The comments are not responsive, and additional comments are
required. The comments do not address the recommendation. The ACO did not
require a complete forward pricing rate agreement proposal submission as
required by the FAR, and the Director’s comments on page 6 acknowledge that
they did not require this data. The statements made by the Director in response to
recommendation 3.a. and DCMA comments on page 6 are contradictory. In
addition, the ACO was unable to provide price negotiation memorandums for 8 of
22 BAE FPRAs, and 14 price negotiation memorandums did not properly
document information required by FAR 15.406-3. We request that DCMA
provide additional comments that address the recommendation and provide a
target completion date for corrective actions to be taken.


                                    18 

              b. Submit accurate, current, and complete forward pricing rate
agreement proposals to the Defense Contract Audit Agency for audit.

Management Comments. The Director, DCMA concurred and stated that
DCMA will continue to request DCAA involvement in the FPRA process.
DCMA’s comments on page 6 state that the ACO does not require a complete
proposal submission or request a DCAA review of a complete proposal in a
continuous FPRA environment; it is not always necessary. In addition, the
Director stated that in order to assist DCMA contracting officers in coordinating
DCAA audit support, DCMA has implemented and is conducting training on the
2.0 version of the E-tools based Pricing and Negotiation application. This
application will provide the ACO with the ability to create and track pricing
support requests.

Audit Response. The comments are not responsive, and additional comments are
required. The comments do not address the recommendation. The statements
made by the Director in response to recommendation 3.b. and DCMA comments
on page 6 are contradictory. We request that DCMA provide additional
comments that address the recommendation and provide a target completion date
for corrective actions to be taken.

               c. Establish procedures to implement Defense Contract
Management Agency guidance to include Defense Contract Audit Agency
auditors during the Alpha contracting process.

Management Comments. The Director, DCMA concurred and stated that the
PCO normally leads the Alpha process; however, to ensure DCAA participation
in the Alpha process, DCMA Combat Vehicles leadership will meet with DCAA
upper management to facilitate common understanding and establish mutual
agreement on roles and responsibility in the Alpha process. The estimated
completion date for this action is May 15, 2008.

Audit Response. The comments are partially responsive, and additional
comments are required. The DoD IG recommends that the procedures
implemented or agreed upon as a result of the meeting with DCAA upper
management be documented.

       4. We recommend that the Commander, Defense Contract Management
Agency, BAE Systems Ground Systems Division request the Defense Contract
Audit Agency to perform an audit of forward pricing rate agreement proposals in
accordance with Federal Acquisition Regulation Part 42 requirements.

Management Comments. The Director, DCMA partially concurred with the
recommendation and stated that the DCMA guidebook on forward pricing rates
includes extensive guidance on the process to be followed for the development of
FPRAs. Section 3 of the Guidebook provides for the inclusion of DCAA in the
process. The Director also stated that the ACO does not require a complete
proposal submission or request a DCAA review of a complete proposal in a
continuous FPRA environment; it is not always necessary.

In addition, the Director stated that an opportunity for improvement may exist;
the DACO had initiated discussions between BAE, TACOM, and DCAA. The
intent is to evaluate the impact on the Alpha Proposal Development Process as

                                    19 

compared to the process in which a complete proposal is audited after submittal.
The evaluation is estimated to be completed by July 30, 2008.

Audit Response. The comments are partially responsive, and additional
comments are required. We acknowledge that the DACO has initiated
discussions to evaluate the proposal process; however, DCMA should already be
requesting audits of forward pricing rate agreement proposals in accordance with
Federal Acquisition Regulation Part 42 requirements. We request that DCMA
provide additional comments that document the agreed-to procedures after the
evaluation including TACOM LCMC and DCAA and provide a target completion
date for corrective actions to be taken.

       5. We recommend that the Branch Manager, Germantown Branch Office,
Defense Contract Audit Agency, perform a post award audit of contracts awarded
using forward pricing rate agreements for which certified cost and pricing data
was obtained. The auditors should identify whether defective pricing occurred
and make any necessary recommendations to adjust affected contracts.

Management Comments. The Regional Director, Mid-Atlantic Region, Defense
Contract Audit Agency concurred, stating that DCAA will commence post award
audit(s) of applicable pricing actions subject to the CY 2001 through current
forward pricing rate agreements. DCAA will select applicable pricing actions for
post award audits based on a risk assessment considering the potential for these
actions to be overpriced. In addition, DCAA would welcome any
customer-requested post award audits of specific contracts based on customer
concerns or risk assessment.

Audit Response. The comments are responsive, and no additional comments are
required.




                                    20 

Appendix A. Scope and Methodology
We conducted this performance audit from August 2007 through March 2008 in
accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

We evaluated whether TACOM LCMC and DCMA contracting officials
constrained DCAA’s ability to perform effective and meaningful audits in
support of contracts awarded to BAE. We performed the audit in response to
allegations to the Defense Hotline. Based on the information provided in the
anonymous complaint, we reviewed contract W56HZV-05-G-0005, delivery
orders 0001, 0002, 0003, 0004; contract DAAE07-01-C-N030, modifications
P00102 and P00133; and contract DAAE07-01-C-M016, modification P00123.

Our audit included four major areas of review. Our review focused on FPRAs,
estimating system reviews, the FY 2005 Bradley vehicle procurement, and the
FY 2007 HERCULES vehicle procurement. We collected, reviewed, and
analyzed documents from TACOM LCMC, DCMA BAE, and DCAA BAE
dated from July 2000 through February 2008. Specifically, we evaluated:
FPRA documentation; DCAA estimating system deficiency reports and
estimating system determination letters issued by the DACO; one basic
contract; four delivery orders; three modifications; price negotiation
memoranda; Alpha negotiations documentation; and other miscellaneous
correspondence to determine contracting officials’ inclusion of DCAA in
awarding contracts to BAE.

We interviewed contracting officials at TACOM LCMC and DCMA and
supervisory and staff auditors at the DCAA Germantown Branch Office and the
BAE office.

We reviewed applicable contracting regulations, including the FAR, the
Defense Federal Acquisition Regulation Supplement, DoD Directives, United
States Code, and Agency guidance from TACOM LCMC, DCMA, and DCAA.

Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

Use of Technical Assistance. We did not require technical assistance for the
execution of this audit.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the “DoD Contract Management” high-risk area.




                                           21 

Prior Coverage
    No prior coverage has been conducted on contracts awarded by TACOM LCMC
    to BAE during the last 5 years.




                                   22 

Appendix B. Allegations
   The following section summarizes the 11 Defense Hotline allegations concerning
   TACOM LCMC and DCMA contracting officials’ actions. We substantiated 3
   and partially substantiated 3 of the 11 allegations.

   Allegation 1. TACOM LCMC personnel typically request DCAA to perform
   BOM reviews in unreasonably short time frames rather than requesting audits of
   procurements on sole-source fixed-price contracts.

   Audit Results. We partially substantiated this allegation. We reviewed contract
   DAAE07-01-C-M016 and determined that DCAA conducted an audit of the sole-
   source fixed-price contract proposal.

   We also reviewed the FY 2005 Bradley vehicle procurement under contract
   W56HZV-05-G-0005 and determined that TACOM LCMC personnel requested
   DCAA to perform a BOM review within 2 non-working days. Please see the
   Finding discussion for details.

   In addition, we reviewed the FY 2005 and FY 2007 HERCULES vehicle
   procurements under contract DAAE07-01-C-N030. We determined that TACOM
   LCMC personnel requested DCAA to perform a review of the BOM in less than
   1 month for the FY 2005 HERCULES procurement. DCAA did not perform a
   review for the FY 2007 HERCULES procurement because TACOM LCMC
   personnel granted a waiver for the submission of certified cost or pricing data.
   Although two of the four procurements reviewed had requests for audits of part of
   a proposal in a short time frame, we could not determine whether TACOM
   LCMC contracting officials’ requests for DCAA to perform a BOM review in
   unreasonably short time frames were typical.

   Allegation 2. DCAA was not included during the Alpha contracting process for
   Bradley vehicles, which began 6 months prior to award of a $1.2 billion contract.

   Audit Results. We substantiated this allegation. Please see the Finding
   discussion for details.

   Allegation 3. The PNM for the $1.2 billion Bradley contract falsely referred to
   an “audit” by DCAA when no actual audit was performed; the PNM also falsely
   stated that DCAA participated in the Alpha negotiations.

   Audit Results. We partially substantiated this allegation. The PNM issued by
   TACOM LCMC personnel for the $1.2 billion Bradley contract accurately
   conveyed the results of the DCAA review performed in support of this
   procurement. The PNM uses the word, “audit,” and DCAA did not perform an
   actual audit; however, “audit” was not used to intentionally mislead. The PNM
   clearly stated that DCAA disclaimed an opinion on the review due to time
   constraints, and the PNM accurately lists the limited DCAA results.

   The award abstract for the contract incorrectly stated that DCAA personnel
   participated in Alpha negotiations and concurred with the negotiated settlement.
   DCAA personnel did not participate in the Alpha negotiations. See the Finding
   discussion for details.
                                       23 

Allegation 4. DCMA and the DACO, in particular, ignored numerous inadequate
estimating system reports and estimating deficiency flash reports that DCAA
issued, and subsequently issued letters to BAE stating that their estimating system
was adequate.

Audit Results. We did not substantiate this allegation. Since 2001, DCAA has
issued 7 audit reports citing a total of 28 deficiencies on BAE’s estimating
system. The DACO issued four letters, in response to four audit reports, notifying
BAE of deficiencies identified by DCAA on their estimating system. However,
the DACO determined BAE’s estimating system to be approved, in accordance
with DoD guidance. Specifically, the Defense Federal Acquisition Regulation
Supplement 215.4 states that the ACO must determine the acceptability of a
contractor’s estimating disclosure and system and pursue corrective actions of any
deficiencies.

On February 20, 2008, DCAA issued an estimating system report citing six
estimating system deficiencies, two of which were previously identified as
outstanding deficiencies. The DACO has not yet made a determination on the
adequacy of BAE’s estimating system, based on the results of the most recent
estimating system report.

Allegation 5. The DACO does not permit DCAA to perform FPRA reviews,
even though DCAA has expressed concern over substantial differences between
the proposed rates in BAE’s FPRAs and the eventual actual rates.

Audit Results. We substantiated this allegation. Please see the Finding
discussion for details.

Allegation 6. TACOM LCMC did not require cost or pricing data on the
sole-source contract to BAE for 113 HERCULES vehicles and did not ask DCAA
to review past cost data as a basis for pricing the contract, allowing BAE to
potentially overprice the contract by a substantial amount.

Audit Results. We did not substantiate this allegation. TACOM LCMC
contracting officials acted in accordance with FAR 15.403-1(c)(4) when they
granted a waiver of certified cost or pricing data for the FY 2007 HERCULES
procurement. On November 8, 2006, the Commander TACOM LCMC
determined that the Government had sufficient cost or pricing data information
that could be used to determine a fair and reasonable price for the procurement.
On March 23, 2007, the Director, Defense Procurement and Acquisition Policy
issued a memorandum with the subject line, “Waivers Under the Truth in
Negotiations Act,” which mandated stricter guidance for issuing waivers of cost
or pricing data. TACOM LCMC provided the guidance to BAE on June 22,
2007, and stated that very few waivers for certified cost or pricing data would be
granted in the future, and the contractor should not expect future waivers on the
basis of a previous one.

Allegation 7. Increasingly, TACOM LCMC procurements fail to require cost or
pricing data, and TACOM LCMC does not request DCAA to evaluate cost data
on some past fixed-price procurements.




                                    24 

Audit Results. We did not substantiate this allegation. We reviewed four
procurements and found one instance in which TACOM LCMC did not require
cost or pricing data. See the Audit Results for Allegation 6.

Allegation 8. TACOM LCMC consistently required BAE to provide pricing on a
quick turn-around basis, many times within 5 days; as a result, BAE priced
subcontracts 20 to 30 percent higher than reasonable in order to lower the
financial risks related to providing pricing on short notice.

Audit Results. We did not substantiate this allegation. TACOM LCMC uses
Alpha contracting to negotiate BAE contracts. TACOM LCMC and BAE use an
integrated product team to develop the contract requirements and proposal
through a simultaneous exchange of information.

We reviewed four procurements, three of which used Alpha contracting. We
determined that DCAA reviewed the BAE proposal for contract DAAE07-01-C-
M016, which included a review of direct material costs. During Alpha
negotiations, DCAA discussed differences between proposed direct material and
vendor quotes and historical data. DCAA ensured that the contractor
incorporated the negotiated material costs into the final proposal. For the FY
2005 Bradley procurement, DCAA reviewed the major subcontracts not included
in the BOM and six subcontracts to be awarded at not-to-exceed prices with a
downward adjustable clause. TACOM LCMC applied a 4-percent decrement to
all subcontractors because the Government believed an upfront 4-percent
decrement would result in more cost savings than a downward adjustment to be
made at a later date. For the FY 2005 HERCULES procurement, DCAA
reviewed major subcontract costs included in the BOM and recommended
decrement factors. TACOM LCMC negotiated with BAE to incorporate DCAA’s
recommendations.

With the exception of the FY 2007 HERCULES procurement, TACOM LCMC
and BAE personnel worked together to develop the proposal prior to final
negotiations, and DCAA auditors reviewed the major subcontract costs and
recommended decrement factors to be applied during final negotiations. TACOM
then negotiated with BAE to incorporate DCAA’s recommendations. Based on
the procurements we reviewed, we cannot substantiate that TACOM LCMC
consistently requires BAE to provide pricing on a short turn-around that resulted
in BAE overpricing contracts by 20 to 30 percent.

Allegation 9. TACOM LCMC does not request that DCAA review labor costs in
proposals or perform audits of labor for estimating purposes.

Audit Results. We substantiated the statement in the allegation, but TACOM
LCMC had a logical basis for not requesting DCAA reviews. TACOM LCMC
contracting personnel stated that they did not ask DCAA to review labor costs for
any of the procurements we reviewed because they do not believe DCAA
personnel had the expertise to review labor costs. TACOM LCMC used alternate
methods to review labor costs. For example, DCMA personnel review labor
hours during contract negotiation by comparing proposed hours with actual hours
incurred on prior procurements.

Allegation 10. The ACO at BAE is extremely unprofessional to DCAA auditors.


                                   25 

Audit Results. We did not substantiate this allegation. Although we did find
instances of unprofessional language used by the ACO, we consider this to be an
administrative matter that is not under the purview of our audit.

Allegation 11. BAE’s profits across all contracts are as high as 25 percent; the
concerns raised in the allegations have contributed to the Government paying
substantially higher prices for fixed-price contracts than the Government would
pay if DCMA and TACOM LCMC provided DCAA with reasonable support.

Audit Results. We partially substantiated this allegation. We reviewed a limited
number of contracts based on the information in the anonymous Defense Hotline
allegations. The Government may have paid substantially higher prices for the
fixed-price contracts we reviewed. Please see the Finding discussion for details.




                                    26 

Appendix C. Management Comments on
            Allegations and Audit Response


DCAA Management Comments to Allegation 9. The Regional Director, Mid-Atlantic
Region, Defense Contract Audit Agency, provided comments in response to Allegation 9
(See Appendix B). The Regional Director stated that DCAA will work with TACOM
LCMC’s contracting personnel and provide the necessary audit support in reviewing
labor costs. DCAA has access to contractor records, as well as an in-plant presence.
DCAA uses learning curve applications for production operations and utilizes regression
analysis to evaluate categories of labor that are dependent on other labor elements.

Audit Response. We agree with this action.

DCMA Management Comments to Allegation 2. The Director, Defense Contract
Management Agency, stated that contract negotiations are led by the PCO unless
delegated to the ACO. The Director stated that the ACO is not responsible for
determining whether to include DCAA personnel in the Alpha contracting process, as
was stated in the December 2004 BAE meeting minutes.

Audit Response. We agree that the PCO has the ultimate responsibility for the Alpha
negotiations; however, the DCMA guidebook defines Alpha contracting as the process by
which DCMA, DCAA, and the buying command remain in constant communication with
the contractor while the proposal is developed. The Alpha team concurrently evaluates,
analyzes, fact-finds, and resolves disagreements as the contractor develops the proposal.
Therefore, if DCAA was absent from the meetings, the ACO should have been proactive
in informing DCAA of the Alpha meetings, as both DCAA and DCMA are colocated at
BAE, in order to comply with DCMA guidance and to assist the Government in obtaining
the best price.

DCMA Management Comments to Allegation 5. The Director, Defense Contract
Management Agency, stated that the ACO does not request or require a complete
proposal submission or request a DCAA review of a complete proposal in a continuous
FPRA environment; it is not always necessary, and it allows for having a continuous
FPRA in place for pricing contract actions.

In addition, the Director stated that BAE submits a proposal for all FPRAs with all
current or projected business, broken down by overhead burden center, by year, with
dollars and hours for each contract. The Director stated that DCAA issued post award
audit reports for contracts negotiated from 2001 through 2008 which required cost and
pricing certification, and none of these reports addressed defective pricing for rates.

Audit Response. BAE provided supporting documentation during the FPRA Alpha
process for the business base and pool expenses separately. However, the ACO stated
that he did not require BAE to submit a complete FPRA proposal with supporting
documentation detailing the allocation business bases, pool expenses, and rates for each
FPRA. FAR Part 42.1701 stated the ACO will obtain the contractor’s proposal and
require that it include cost or pricing data that are accurate, complete, and current as of
the date of submission. In addition, the DCMA guidebook stated the ACO should
request an FPRA proposal from the contractor when establishing an FPRA. When Alpha
                                            27 

contracting is used to create an FPRA, the Alpha team should be involved in the
development of the FPRA proposal. Although the Alpha team will review the
contractor’s proposal data as it is developed, the contractor must still provide a final
proposal. The ACO needs to comply with the FAR and DCMA guidance.

DCMA Management Comments to Allegation 11. The Director, Defense Contract
Management Agency stated that the use of forward pricing rates in negotiating contract
for future periods of time inherently contains risk. All FPRAs are estimated and will
vary from final rates.

Audit Response. We agree that all forward pricing rate agreements inherently contain
risk and the estimates will vary from final rates; however, the rates at BAE were
consistently overstated for the contracts we reviewed. If DCAA had been more
effectively utilized, the ACO may have been better able to negotiate rates.




                                             28 

Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, Army Materiel Command
Commander, TACOM Life Cycle Management Command

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services




                                          29 

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)

House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      30 

Defense Contract Audit Agency Comments 





                     31 

32 

Defense Contract Management Agency
Comments




                    33 

34 

35 

36 

37 

38 

       Final Report

        Reference 





       See page 19 





39 

40 

41 

TACOM Life Cycle Management Command
Comments




                  42 

43 

44 

TACOM Life Cycle Management Command
Comments




                  45 

46 

       Final Report

        Reference 





       Revised
       Page 14




47 

                U.S. Army Materiel Command Comments 





                                                          48 

*Omitted TACOM Life Cycle Management Comments provided.
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing, Acquisition and
Contract Management Directorate prepared this report. Personnel of the Department of Defense Office
of Inspector General who contributed to the report are listed below.

Richard B. Jolliffe
Bruce A. Burton
Deborah L. Carros
Sarah A. Davis
Erin M. Grates
Jessica M. Smith
Paula Gonzalez-Tosado
Jillisa H. Milner
Meredith Johnson
Ellen Kleiman-Redden
